        U.S. Department of Energy
        Office of Inspector General
        Office of Audit Services




Audit Report
Protection of the Department of
Energy's Unclassified Sensitive
Electronic Information




DOE/IG-0818                      August 2009
                              Department of Energy
                                Washington, DC 20585

                                     August 4, 2009


MEMORANDUM FOR THE SECRETARY


FROM:                    Gregory H. Friedman
                         Inspector General

SUBJECT:                 INFORMATION: Audit Report on "Protection of the
                         Department of Energy's Unclassified Sensitive Electronic
                         Information"

BACKGROUND

The Department of Energy and its contractors store and process massive quantities of
sensitive information to accomplish national security, energy, science, and environmental
missions. Sensitive unclassified data, such as personally identifiable information (PII),
official use only, and unclassified controlled nuclear information require special handling
and protection to prevent misuse of the information for inappropriate purposes. Industry
experts have reported that more than 203 million personal privacy records have been lost
or stolen over the past three years, including information maintained by corporations,
educational institutions, and Federal agencies. The loss of personal and other sensitive
information can result in substantial financial harm, embarrassment, and inconvenience to
individuals and organizations. Therefore, strong protective measures, including data
encryption, help protect against the unauthorized disclosure of sensitive information.

Prior reports involving the loss of sensitive information have highlighted weaknesses in
the Department's ability to protect sensitive data. Our report on Security Over Personally
Identifiable Information (DOE/IG-0771, July 2007) disclosed that the Department had
not fully implemented all measures recommended by the Office of Management and
Budget (OMB) and required by the National Institute of Standards and Technology
(NIST) to protect PII, including failures to identify and encrypt PII maintained on
information systems. Similarly, the Government Accountability Office recently reported
that the Department had not yet installed encryption technology to protect sensitive data
on the vast majority of laptop computers and handheld devices. Because of the potential
for harm, we initiated this audit to determine whether the Department and its contractors
adequately safeguarded sensitive electronic information.

RESULTS OF AUDIT

The Department had taken a number of steps to improve protection of PII. Our review,
however, identified opportunities to strengthen the protection of all types of sensitive
unclassified electronic information and reduce the risk that such data could fall into the
hands of individuals with malicious intent. In particular, for the seven sites we reviewed:

     •   Four sites had either not ensured that sensitive information maintained on
         mobile devices was encrypted. Or, they had improperly permitted sensitive
                                             2

         unclassified information to be transmitted unencrypted through email or to
         offsite backup storage facilities;

     •   One site had not ensured that laptops taken on foreign travel, including travel to
         sensitive countries, were protected against security threats; and,

     •   Although required by the OMB since 2003, we learned that programs and sites
         were still working to complete Privacy Impact Assessments – analyses designed
         to examine the risks and ramifications of using information systems to collect,
         maintain, and disseminate personal information.

Our testing revealed that the weaknesses identified were attributable, at least in part, to
Headquarters programs and field sites that had not implemented existing policies and
procedures requiring protection of sensitive electronic information. In addition, a lack of
performance monitoring contributed to the inability of the Department and the National
Nuclear Security Administration (NNSA) to ensure that measures were in place to fully
protect sensitive information. As demonstrated by previous computer intrusion-related
data losses throughout the Department, without improvements, the risk or vulnerability
for future losses remains unacceptably high.

In conducting this audit, we recognized that data encryption and related techniques do not
provide absolute assurance that sensitive data is fully protected. For example, encryption
will not necessarily protect data in circumstances where organizational access controls
are weak or are circumvented through phishing or other malicious techniques. However,
as noted by NIST, when used appropriately, encryption is an effective tool that can, as
part of an overall risk-management strategy, enhance security over critical personal and
other sensitive information.

The audit disclosed that Sandia National Laboratories had instituted a comprehensive
program to protect laptops taken on foreign travel. In addition, the Department issued
policy after our field work was completed that should standardize the Privacy Impact
Assessment process, and, in so doing, provide increased accountability. While these
actions are positive steps, additional effort is needed to help ensure that the privacy of
individuals is adequately protected and that sensitive operational data is not
compromised. To that end, our report contains several recommendations to implement a
risk-based protection scheme for the protection of sensitive electronic information.

OTHER MATTERS

Our review also revealed that sites we reviewed were not encrypting sensitive data
contained on desktops, servers and other network-based storage devices. This practice,
currently in place or planned at certain Department of Defense activities to protect
sensitive information, has been identified by NIST as a best practice and as part of an
effective risk-based management approach to data protection. Our report, in Appendix 2,
discusses the benefits and limitations of encryption for these types of devices and
suggests additional actions that the Department may wish to consider.
                                             3

MANAGEMENT REACTION

Management generally concurred with the report's recommendations and pledged to take
action to address the weaknesses identified in our report. Management indicated that
many of the issues identified in our report should be addressed as part of a risk-based
approach to cyber security. In separate comments, the NNSA neither concurred nor
disagreed with our specific recommendations. However, the NNSA did express concern
over the practicality of utilizing encryption software in all situations and questioned the
need to conduct Privacy Act Assessments.

As noted in the Management Comments section of this report (Appendix 4), the Office of
Inspector General agrees that information technology restrictions and requirements
should be risk-based and that the use of encryption software may be challenging in some
circumstances. However, given the history of compromises of sensitive information both
in the Department and in the Government at large, we concluded that an aggressive
program of protecting information is in the best interest of the Department, its Federal
and contractor personnel, and national security.

Attachment

cc: Deputy Secretary
    Administrator, National Nuclear Security Administration
    Under Secretary of Energy
    Under Secretary for Science
    Chief of Staff
    Chief Information Officer
    Director, Office of Management
REPORT ON PROTECTION OF THE DEPARTMENT OF
ENERGY'S UNCLASSIFIED SENSITIVE ELECTRONIC
INFORMATION

TABLE OF
CONTENTS

   Protection of Unclassified Sensitive Electronic Information

   Details of Finding .......................................................................................................1

   Recommendations.......................................................................................................7

   Comments ...................................................................................................................8


   Appendices

   1. Objective, Scope, and Methodology...................................................................13

   2. Other Matters for Consideration .........................................................................15

   3. Prior Reports .......................................................................................................16

   4    Management/Auditor Comments........................................................................18
PROTECTION OF UNCLASSIFIED SENSITIVE ELECTRONIC
INFORMATION

Ensuring Security of    The Department of Energy (Department or DOE) had made
Sensitive Information   improvements in implementing protective measures over
                        personally identifiable information (PII) and had
                        implemented certain recommendations made in our report
                        on Security Over Personally Identifiable Information
                        (DOE/IG-0771, July 2007). Our current review, however,
                        established that additional action was needed to better
                        protect all types of unclassified sensitive information, to
                        include official use only and unclassified controlled nuclear
                        information. In particular, the Department had not ensured
                        that sensitive data on mobile devices, transmitted using
                        email, or sent offsite using backup media, was encrypted,
                        as appropriate. In addition, one site we visited had not
                        implemented appropriate measures to protect sensitive
                        information taken on foreign travel. Sites were also still
                        working to complete required Privacy Impact Assessments
                        (PIAs) for all systems containing privacy information.

                                       Encryption of Sensitive Data

                        Sites reviewed had not always ensured that sensitive
                        information maintained on mobile devices was encrypted.
                        In addition, they did not always encrypt sensitive
                        information transmitted using email or sent offsite using
                        backup media. In particular, three sites had not always
                        encrypted sensitive data maintained on laptop computers to
                        protect against unauthorized disclosure, as required by
                        Department and Federal directives. Although identified as
                        a best practice by the Department and the National Institute
                        of Standards and Technology (NIST), we found that full-
                        disk encryption had only been deployed on approximately
                        6,000 laptops believed to contain PII at Sandia National
                        Laboratories (SNL). Officials at SNL told us, however,
                        that they had not implemented such measures for the
                        remainder of the site's approximately 12,000 laptops even
                        though they assumed that all laptops maintained by the site
                        contained sensitive information.

                        SNL officials told us that the site had no plans to
                        implement full-disk encryption on the remaining laptops
                        that were assumed to contain other types of sensitive
                        information such as official use only and unclassified
                        controlled nuclear information. Officials noted that they
                        also relied on file-level encryption software to protect
                        sensitive data that was not PII, a practice with which we do
                        not take issue. However, there was no assurance that all

________________________________________________________________
Page 1                                            Details of Finding
                      users had this software as it was not part of the standard
                      suite of installed software. As an example of the risk of
                      harm associated with not encrypting data on mobile
                      devices, in one recent incident, SNL reported that an
                      unencrypted laptop containing sensitive data was stolen,
                      potentially exposing the information contained on the
                      device.

                      Lawrence Livermore National Laboratory (LLNL) officials
                      also assumed that each of the laboratory's approximately
                      7,000 laptops contained some form of sensitive
                      information, but they had not evaluated or confirmed that
                      computers containing sensitive data were appropriately
                      secured. Although LLNL developed a plan to install full-
                      disk encryption software on approximately 2,500 laptop
                      computers expected to be taken offsite, officials
                      commented that they had not yet begun to implement this
                      initiative due to funding limitations. In addition, we noted
                      that because of the limited scope of the site's encryption
                      plan, less than half of the total laptops used at the site are to
                      be protected.

                      We also found that sensitive information transmitted via
                      email or sent offsite using backup tapes was not always
                      encrypted at several sites. For instance, SNL site-level
                      policy did not require users to encrypt emails containing
                      sensitive data when sent within the internal network even
                      though encryption in these circumstances was required by
                      both Department directives and the National Nuclear
                      Security Administration (NNSA) policy. Although a SNL
                      cyber security official commented that compensating
                      network controls, such as firewalls and routers, were in
                      place on the internal network to protect such transmissions
                      from unauthorized disclosure, the Sandia Site Office's
                      Designated Approving Authority believed these controls
                      did not adequately mitigate the risk and that all emails
                      containing sensitive unclassified information should be
                      encrypted. To its credit, SNL officials commented that
                      they had implemented encryption capabilities to protect
                      email transmissions and updated site-level policy after our
                      site visit.

                      While not every email or backup media must be encrypted,
                      DOE Manual 205.1-7 – Security Controls for Unclassified
                      Information Systems Manual – requires that "…all SUI
                      [Sensitive Unclassified Information] on all portable/mobile
                      devices and removable media, such as CDROMS or thumb
________________________________________________________________
Page 2                                            Details of Finding
                      drives containing SUI/PII must be encrypted." In addition,
                      Office of Management and Budget (OMB) Memorandum
                      06-16 – Protection of Sensitive Agency Information –
                      directed that, "In those instances where personally
                      identifiable information is transported to a remote site,
                      implement NIST Special Publication 800-53 security
                      controls ensuring that information is transported only in
                      encrypted form."

                      However, we found that backup tapes at LLNL and the
                      Pacific Northwest National Laboratory (PNNL) were not
                      always encrypted in accordance with Department and
                      program directives. Specifically, we noted that although
                      both LLNL and PNNL sent their backup tapes offsite, they
                      did not encrypt the contents of those backups before
                      turning them over to their archive/storage subcontractors.
                      Because LLNL officials assumed that all of their systems
                      contained sensitive information, we believe that the backup
                      tapes should have been encrypted in accordance with
                      Department and OMB requirements. Although PNNL
                      officials did not make the same assumption, they had not
                      ensured that sensitive data was not contained on the tapes
                      or was appropriately secured.

                                       Laptops on Foreign Travel

                      Laptop computers taken on foreign travel by users at LLNL
                      were not adequately protected against cyber security
                      threats. In August 2007, the Directors at each of the
                      NNSA's three weapons laboratories agreed to implement a
                      pool of common laptops specifically configured and
                      managed for use on foreign travel. However, more than
                      one year later, LLNL had not yet implemented this
                      approach. Based on our sample of ten users who took their
                      laptops on foreign travel, including individuals that traveled
                      to sensitive foreign countries, we found that only six of
                      them had encryption capabilities on their laptops and only
                      one of those users utilized full-disk encryption. Although
                      LLNL laptops taken on foreign travel were physically
                      inspected upon return, logical security assessments of
                      computers to determine whether they had been tampered
                      with or potentially infected with malware were not
                      completed. In one case, we noted that a user connected his
                      laptop to the LLNL network after he returned from travel
                      but before taking his computer to the security organization
                      for physical inspection, thereby subjecting LLNL to
                      potential exploitation if the laptop had been compromised.
________________________________________________________________
Page 3                                            Details of Finding
                                   While we noted that the use of encryption was restricted by
                                   certain countries, compensating controls such as assessing
                                   computers for security breaches immediately upon return to
                                   the laboratory and prior to reconnection to the site network
                                   could help ensure protection against the introduction of
                                   malware into the LLNL computing environment.

                                                  Privacy Impact Assessments (PIAs)

                                   PIAs are documents approved by the Senior Agency
                                   Official for Privacy and are used to determine the risks of
                                   collecting, maintaining, and disseminating privacy data in
                                   an electronic information system and ensuring that controls
                                   are in place to protect such data. To support the
                                   development of PIAs, the Department's Office of
                                   Management issued Department of Energy Procedures For
                                   Conducting Privacy Impact Assessments in January 2007
                                   which stated that PIAs were to be conducted "…on all
                                   systems that contain or administer information in
                                   identifiable form about its employees, contractors or
                                   members of the public." This guidance was formalized in
                                   January 2009 with the issuance of DOE Order 206.1 –
                                   Department of Energy Privacy Program.

                                   While we recognize that it takes time to develop PIAs, we
                                   noted that assessments were not completed for at least 14
                                   systems (including 3 Federal systems) at 4 of the 7 sites
                                   reviewed. For instance, the NNSA Service Center had not
                                   completed any PIAs because officials stated that they did
                                   not have any PII in systems that were externally facing 1 . In
                                   another case, SNL had interpreted the guidance to mean it
                                   only had to perform PIAs on systems that collected
                                   information about members of the public, not information
                                   collected on employees and contractors. SNL officials
                                   stated they had not developed PIAs for any of their systems
                                   because they did not collect information about members of
                                   the public. Nonetheless, we noted that information was
                                   manually collected and then stored in a number of
                                   information systems by SNL officials for various Federal
                                   purposes such as tracking foreign national visitors. In
                                   contrast to these examples, the Department's Chief Privacy
                                   Officer noted that the Department makes no distinction
                                   between whether a system is internally or externally facing
                                   when determining whether to complete a PIA. Effective
1
 Externally facing systems are those that are maintained by the Department and its contractors, but can be
accessed by the public. Internally facing systems are systems that are only accessible by Department and
contactor personnel.
________________________________________________________________
Page 4                                            Details of Finding
                           implementation of the PIA process should help the
                           Department ensure that privacy protections are considered
                           and implemented through the life of an information system.

Program                We found that Headquarters programs and field sites had
Implementation and     not fully implemented existing policies and procedures that
Performance Monitoring require sensitive electronic data be properly secured. A
                       lack of performance monitoring contributed to the
                       Department's inability to ensure that adequate protections
                       were in place.

                                            Program Implementation

                           Headquarters programs and sites reviewed had not fully
                           implemented policies and procedures for ensuring that
                           sensitive electronic information was protected. In
                           particular, Technical and Management Requirement 22 and
                           DOE Manual 205.1-7, issued by the Office of the Chief
                           Information Officer (OCIO), required encryption of all
                           sensitive unclassified data residing on mobile computing
                           devices. However, we noted that sites had not fully
                           implemented this policy and had not taken action to
                           implement encryption of all mobile devices such as backup
                           tapes. Furthermore, LLNL had not implemented stringent
                           requirements for taking sensitive data on foreign travel
                           because NNSA policies did not require that such action be
                           taken.

                           Although OMB directed in September 2003 that agencies
                           conduct PIAs for electronic information systems, the
                           Department had not, until recently, issued a formal policy
                           requiring PIAs for all systems containing privacy
                           information. While the Department's Office of
                           Management issued the Department of Energy Procedures
                           For Conducting Privacy Impact Assessments in January
                           2007, that stated that PIAs should be completed for all
                           systems containing privacy information, this guidance had
                           not been formalized into policy until after our review and
                           was not included in site-level contracts. As such, officials
                           at a number of sites reviewed commented that they were
                           not required to follow the guidance. Lacking specific
                           implementation direction, contractors had inconsistently
                           interpreted OMB direction.

                           Even though NNSA program policy referred to the OMB
                           direction as a requirement, NNSA's policy specifically
                           excluded systems that were only accessible internally. The
________________________________________________________________
Page 5                                            Details of Finding
                      Department's Chief Privacy Officer stated that in July 2008,
                      NNSA officials agreed to develop PIAs for all systems
                      containing PII, but our review of three NNSA sites
                      disclosed that the sites had no plans to develop additional
                      assessments. Subsequent to our field work, the Department
                      issued DOE Order 206.1 that formally required a PIA for
                      all unclassified systems containing federal employee and
                      contractor privacy data, as well as information on members
                      of the public. When fully implemented, this directive
                      should help the Department ensure that systems containing
                      privacy information are adequately assessed for protective
                      measures.

                                       Performance Monitoring

                      Headquarters programs and sites reviewed had not
                      effectively implemented performance monitoring activities
                      to ensure that sensitive electronic information was
                      adequately protected. For instance, even though
                      management agreed with a recommendation in our
                      previous 2007 report on Security over Personally
                      Identifiable Information that Department officials perform
                      random checks to verify that PII on mobile computing
                      devices was encrypted, none of the sites reviewed had
                      instituted such a process. In SNL's case, officials had not
                      ensured that all individuals even had the capability to
                      encrypt sensitive data. Specifically, we noted that SNL
                      maintained only 6,956 file-level encryption software
                      licenses for nearly 12,000 members of the workforce
                      despite the fact that officials assumed that every computer
                      contained sensitive information. Furthermore, even though
                      users at PNNL were responsible for installing encryption
                      software, because it was not part of the standard suite of
                      software, site officials did not perform reviews to
                      determine whether users had actually installed the software.
                      To their credit, the two Office of Environmental
                      Management sites reviewed had ensured that full-disk
                      encryption was installed on all laptops, effectively
                      eliminating the need to conduct random inspections.

                      We also found that NNSA monitoring procedures did not
                      detect nearly 1,300 laptops at SNL that were not encrypted
                      because the site did not consider them mobile devices. We
                      had previously identified this weakness within NNSA in




________________________________________________________________
Page 6                                            Details of Finding
                       our 2007 report on Security Over Personally Identifiable
                       Information, and Headquarters cyber security officials told
                       us that all laptops should be considered mobile devices and
                       protected through encryption.

Information Security   Without improvements to ensure adequate controls are in
and Assurance          place, the Department may have difficulty protecting its
                       sensitive electronic information, including PII.
                       Specifically, the failure to encrypt all sensitive data
                       maintained on mobile devices or transmitted using email or
                       backup media could result in its unnecessary exposure of
                       privileged data. For instance, the sites reviewed reported
                       more than 240 computers lost or stolen during the last two
                       fiscal years. However, none of the sites could ensure that
                       sensitive unclassified information was protected on those
                       machines through the use of encryption software. In
                       addition, the importance of protecting sensitive data
                       transported offsite using mobile media was highlighted
                       when PII of 59,000 former employees at one of the
                       Department's national laboratories was recently lost during
                       a shipment as part of the Department's Former Worker
                       Medical Screening Program.

                       The threat to sensitive information is not limited to external
                       sources, as noted in a U.S. House of Representatives
                       Committee on Government Reform report – Agency Data
                       Breaches Since January 1, 2003 – which indicated that the
                       vast majority of data losses arose from physical thefts of
                       computer equipment or unauthorized use of data by
                       employees. Although encryption does not provide absolute
                       assurance that sensitive data will not be exposed, it should
                       enhance the Department's ability to ensure that data
                       residing on lost or stolen equipment will not be
                       compromised. The need for a strong risk-management
                       program regarding sensitive data also becomes apparent
                       when one considers that industry experts report that the
                       number of cyber security threats continue to increase
                       significantly each year.

RECOMMENDATIONS        To address the issues identified in this report, we
                       recommend that as part of a risk-based sensitive data
                       protection approach, the Administrator, NNSA, Under
                       Secretary for Science, and Under Secretary of Energy, in
                       coordination with the Department and NNSA Chief
                       Information Officers:



________________________________________________________________
Page 7                                          Recommendations
                        1. Ensure that sensitive information on mobile
                           devices, transmitted using electronic mail, or sent to
                           offsite backup storage is adequately protected
                           through encryption;

                        2. Ensure that sensitive information maintained on
                           mobile computing devices taken on foreign travel is
                           adequately protected and that such devices are
                           physically and logically examined prior to
                           reconnection to government networks; and,

                        3. Verify that sensitive data on computing devices is
                           identified and adequately protected by performing
                           random checks.

                     We also recommend that the Administrator, NNSA, the
                     Under Secretary for Science, and the Under Secretary of
                     Energy, in coordination with the Senior Agency Official for
                     Privacy and Chief Privacy Officer:

                        4. Complete required PIAs on systems that contain
                           privacy information.


MANAGEMENT AND       Management generally concurred with the report's findings
AUDITOR COMMENTS     and with the first three recommendations. Management
                     fully concurred with recommendation four. In addition,
                     management indicated that it planned to address a number
                     of the issues identified in our report in future Department-
                     level cyber security direction. In separate comments, the
                     NNSA did not specifically indicate whether it agreed with
                     our recommendations. To that extent, we consider NNSA's
                     comments to be non-responsive. Responses from both
                     Department and NNSA management indicated concerns
                     with a number of assertions made in our report. We have
                     addressed management's comments below and made
                     technical changes to the report, as appropriate.
                     Management's comments are included in their entirety in
                     Appendix 4.

                     Management commented that if adequate steps were taken
                     to ensure that there was no sensitive information on laptops
                     or other mobile devices at a site, this determination should
                     suffice without requiring encryption of all data on such
                     devices. Management believed that this approach should
                     help to balance risk against the cost and productivity loss
                     associated with unnecessary use of encryption where its use
________________________________________________________________
Page 8                                                 Comments
                     is not needed. Although we agree that it may not be
                     necessary to encrypt mobile devices if they do not contain
                     sensitive data, the sites reviewed had not identified which
                     machines contained such information but instead assumed
                     that all computers contained sensitive information.

                     Management commented that the type of protection
                     provided for mobile computing devices taken on foreign
                     travel should be determined by a local risk analysis.
                     Management believed that upon return to a government site
                     from foreign travel, it would be prudent to logically scan
                     the device either before it is connected to a government
                     network, or if connected, before it is given full access to the
                     network. We agree that sites should be able to implement
                     security requirements using a valid and documented risk
                     analysis. However, an analysis of the need for conducting
                     logical scans was not completed at LLNL – the site
                     identified in the report as having security deficiencies
                     related to laptops taken on foreign travel. Furthermore, as
                     noted in the report, LLNL had not yet implemented a
                     common pool of laptops for foreign travel as agreed to by
                     the Directors of the three NNSA laboratories.

                     Management noted that performing random checks on
                     computing devices to ensure encryption of sensitive data
                     may be helpful, but noted that consideration of the need to
                     perform random checks should be based on local risk
                     analysis. Although we agree that risk-based decisions
                     should be made at the site-level, none of the sites visited
                     had instituted such a review process or documented reasons
                     for not doing so. In our opinion, absent the use of full-disk
                     encryption software, it is imperative that some sort of
                     verification be performed to ensure users are appropriately
                     encrypting sensitive data. Management also had previously
                     agreed to perform such checks and noted its agreement in
                     its response to our report on PII protections.

                     Management also expressed concern about the information
                     included in Appendix 2 of our report. In particular,
                     management indicated that consideration should be given
                     to an analysis of performance, productivity, and cost when
                     deciding whether to implement encryption of data at rest.
                     Management's comments also indicated that there did not
                     appear to be a Federal government-wide decision or
                     recommendation that sensitive data on desktops or servers
                     should be encrypted. Although we agree that no
                     government-wide mandate existed to encrypt sensitive data
________________________________________________________________
Page 9                                                 Comments
                     at rest, NIST discussed the benefits of this practice in NIST
                     Special Publication 800-111 – Guide to Storage Encryption
                     Technologies for End User Devices. Our report included a
                     discussion of both the positive and negative aspects of
                     encrypting data at rest that programs and sites should
                     consider when implementing their information security
                     programs.

                     In separate comments, the NNSA responded that while the
                     term "sensitive electronic information" had no formal
                     definition, three types of sensitive information were
                     discussed in the report including official use only, PII, and
                     unclassified controlled nuclear information. The NNSA
                     noted that the protection requirements for each type of
                     information arise from different legal authorities and
                     require protections that differ significantly. Management
                     also commented that our report did not appear to
                     completely address or identify whether the Department and
                     its contractors adequately protected "sensitive electronic
                     information." In our report, we used "sensitive electronic
                     information" to refer to various types of sensitive
                     unclassified information as defined in Technical and
                     Management Requirement 22, DOE Manual 205.1-7, and
                     NNSA Policy Letter 14.2-C – NNSA Certification and
                     Accreditation (C&A) Process for Information Systems. All
                     three sources identify official use only, PII, and
                     unclassified controlled nuclear information as examples of
                     sensitive unclassified information. While we agree that the
                     legal authorities and protection requirements may differ
                     among the different categories, the issues we identified and
                     our recommended corrective actions are applicable to all
                     three types of sensitive electronic data.

                     The NNSA commented that the audit appeared to have
                     been performed against regulatory requirements for
                     protection of PII on mobile devices, but that
                     recommendations concerned protection of data at rest on
                     servers and workstations. Our recommendations primarily
                     discussed the need to protect sensitive data on mobile
                     devices or in transit, not data at rest.

                     The NNSA indicated that statements in our report regarding
                     the use of full-disk encryption on laptops at SNL appeared
                     to take issue with the site for not implementing what is
                     considered a best practice and not a requirement.
                     Management also stated that the report did not identify the
                     number of laptops that were actually identified as mobile or
________________________________________________________________
Page 10                                                Comments
                     portable. As discussed in our report, SNL did not provide
                     encryption capability to all users as part of the standard
                     suite of software. We do not take exception that SNL had
                     not deployed full-disk encryption to all laptops, but that the
                     site had not ensured all sensitive data was encrypted using
                     either full-disk or file-level encryption. While we noted
                     during discussions with site officials and a review of
                     documentation obtained from the site that only about ten
                     percent of laptops were not transported offsite, NNSA
                     Headquarters cyber security officials believed that all
                     laptops should be considered mobile devices and
                     appropriately protected.

                     The NNSA commented that we did not confirm if PII was
                     contained on LLNL backup tapes that were turned over to
                     its archive/storage subcontractors. Officials also noted that
                     NIST Special Publication 800-53 – Recommended Security
                     Controls for Federal Information Systems – and DOE
                     Manual 205.1-7 did not specifically require the use of
                     encryption for sensitive information when transported to
                     and stored at remote sites, but allowed approving
                     authorities to utilize a risk assessment to guide the use of
                     encryption and/or physical security controls in this
                     instance. Although we did not confirm whether the backup
                     tapes at LLNL contained PII, officials at the site told us that
                     they operated under the assumption that all systems
                     contained some form of sensitive unclassified information.
                     Therefore, enforcement of DOE Manual 205.1-7 would
                     require the site to ensure that "…all SUI [Sensitive
                     Unclassified Information] on all portable/mobile devices
                     and removable media, such as CDROMS or thumb drives
                     containing SUI/PII must be encrypted." Furthermore, a site
                     security official noted during our review that the failure to
                     encrypt backup tapes at the laboratory was a weakness that
                     the site should address in the future.

                     The NNSA noted that PIAs did not need to be developed
                     for contractor systems that collect only contractor
                     information. The NNSA also noted that our report did not
                     identify whether the systems indicated in the report as not
                     having a PIA were due for one, as policies require PIAs to
                     be completed during development or the certification and
                     accreditation process. Furthermore, the NNSA commented
                     that the manual collection of PII did not require a PIA. We
                     determined that DOE Order 206.1 required that PIAs be
                     conducted on all systems that contain or administer
                     information in identifiable form about its employees,
________________________________________________________________
Page 11                                                Comments
                     contractors or members of the public. We also noted that
                     the requirement to complete a PIA was established in the
                     E-Government Act of 2002. As such, all 14 of the systems
                     identified in our report should have been certified and
                     accredited at least once since that time and the need for a
                     PIA recognized. Department directives also required that
                     all unclassified systems have a Privacy Needs Assessment
                     or PIA that must be reviewed and updated annually.
                     Finally, while we agree that the manual collection of PII
                     did not by itself require the development of a PIA, the
                     example noted in our report identified that SNL was
                     manually collecting PII and inputting that information into
                     an online database, thereby creating the need for such an
                     assessment.




________________________________________________________________
Page 12                                                Comments
Appendix 1

OBJECTIVE             To determine whether the Department of Energy (Department)
                      and its contractors adequately safeguarded sensitive electronic
                      information.

SCOPE                 The audit was performed between July 2008 and April 2009 at
                      Department Headquarters in Washington, DC, and
                      Germantown, Maryland; the Lawrence Berkeley National
                      Laboratory, Berkeley, California; the Lawrence Livermore
                      National Laboratory, Livermore, California; the Sandia
                      National Laboratories, New Mexico and National Nuclear
                      Security Administration (NNSA) Service Center, Albuquerque,
                      New Mexico; and the Richland Operations Office, Office of
                      River Protection, and the Pacific Northwest National
                      Laboratory, Richland, Washington.

METHODOLOGY           To accomplish the audit objective, we:

                         •   Reviewed Federal regulations and Departmental
                             directives and guidance pertaining to protecting
                             sensitive electronic information;

                         •   Reviewed prior reports issued by the Office of
                             Inspector General and the Government Accountability
                             Office;

                         •   Reviewed program and site-level policies relevant to
                             protecting sensitive electronic information;

                         •   Held discussions with program officials from
                             Department Headquarters and sites reviewed, including
                             representatives from the Offices of Management, the
                             Chief Information Officer, Health, Safety and Security,
                             Environmental Management, Civilian Radioactive
                             Waste Management, Science, as well as the NNSA;
                             and,

                         •   Interviewed employees at the sites visited to determine
                             whether sensitive electronic information was
                             adequately protected while on foreign travel.

                      We conducted this performance audit in accordance with
                      generally accepted government auditing standards. Those
                      standards require that we plan and perform the audit to obtain
                      sufficient, appropriate evidence to provide a reasonable basis
                      for our findings and conclusions based on our audit objectives.


________________________________________________________________
Page 13                            Objective, Scope, and Methodology
Appendix 1 (continued)

                      We believe the evidence obtained provides a reasonable basis
                      for our findings and conclusions based on our audit objectives.
                      The audit included tests of internal controls and compliance
                      with laws and regulations to the extent necessary to satisfy the
                      audit objective. Because our review was limited, it would not
                      necessarily have disclosed all internal control deficiencies that
                      may have existed at the time of our audit. We also assessed
                      performance measures in accordance with the Government
                      Performance and Results Act of 1993 relevant to protecting
                      sensitive electronic information. Although we did not identify
                      measures specific to protecting sensitive electronic
                      information, we noted that limited measures did exist related to
                      cyber security. We did not rely on computer-processed data to
                      satisfy our audit objective.

                      Management waived an exit conference.




________________________________________________________________
Page 14                            Objective, Scope, and Methodology
Appendix 2

                       OTHER MATTERS FOR CONSIDERATION


In addition to the weaknesses identified related to protecting unclassified sensitive electronic
information discussed in this report, we also identified an additional area for consideration at
the seven sites reviewed. Specifically, none of the sites reviewed had encrypted sensitive data
at rest on desktops and servers even though this was identified as a best practice by the
National Institute of Standards and Technology (NIST) and other industry organizations.

As part of an effective risk management process, NIST Special Publication 800-111 – Guide to
Storage Encryption Technologies for End User Devices – noted that full-disk encryption can be
used to protect all data on a device against loss or theft, and file or folder level encryption can
be used to retain protection while the device is powered on for data that is more sensitive than
the rest of the data. Although management's preliminary comments on our report indicated
that sites had used a risk-based approach to determine that sensitive data at rest did not need to
be encrypted, sites did not provide documentation supporting accepted risks when requested.
While not providing absolute assurance that sensitive data could not be exposed, NIST and
other industry sources have reported that encryption of sensitive data at rest is an integral part
of a strong cyber security strategy. Certain Department of Defense activities recently initiated
plans to implement NIST recommendations by requiring that all sensitive data at rest be
encrypted.

While encryption of data at rest has a number of benefits, it also presents certain obstacles that
should be considered. For instance, research has demonstrated that, in certain cases,
encryption can cause a loss of functionality, slowed operation time, or decreased computer
performance. In addition, implementing encryption technologies on data at rest may require a
large investment in software and hardware, as well as the potential need for additional support
costs. Furthermore, as stressed by certain program officials, encryption may not be useful
where internal controls are weak or are circumvented by malicious attacks.

SUGGESTIONS FOR IMPROVEMENT

To help support a defense-in-depth strategy and decrease the risk of compromise to sensitive
information, we suggest that the Administrator, National Nuclear Security Administration
(NNSA), Under Secretary for Science, and Under Secretary of Energy, in coordination with the
Department and NNSA Chief Information Officers:

   1. Employ a documented, risk-based decision process to identify situations in which
      encryption of sensitive data at rest is appropriate.




___________________________________________________________________
Page 15                                   Other Matters for Consideration
Appendix 3

                                   PRIOR REPORTS

Office of Inspector General Reports

•   Management Challenges at the Department of Energy (DOE/IG-0808, December 2008).
    The Office of Inspector General (OIG) identified six significant management challenges
    facing the Department of Energy (Department), including cyber security. The report
    noted that although the Department had made improvements in its unclassified cyber
    security program, we continued to identify deficiencies, including problems relevant to
    certification and accreditation of systems, contingency planning, systems inventory, and
    segregation of duties.

•   Security Over Personally Identifiable Information (DOE/IG-0771, July 2007). The OIG
    determined that the Department had not identified all site-level systems containing
    personally identifiable information or evaluated the risks associated with maintaining
    such systems; remote access protection measures had not been fully deployed in
    accordance with Departmental direction; and, sites had not identified mobile computing
    devices containing personally identifiable information nor ensured that such information
    was encrypted.

•   Excessing of Computers Used for Unclassified Controlled Information at Lawrence
    Livermore National Laboratory (DOE/IG-0759, March 2007). The Lawrence
    Livermore National Laboratory's (LLNL) policies, procedures, and internal controls
    regarding the excessing of unclassified computers were not always consistent with
    applicable Department policies. As a result, LLNL did not ensure that stored data was
    properly removed from embedded memory devices, computer hard drives were
    adequately sanitized, and the sanitization of memory devices was properly documented.

•   Alleged Loss or Theft of Personally Identifiable Information at Pantex (INS-L-07-05,
    February 2007). The Pantex Plant had significant internal control weaknesses in the
    management and retention of I-9 forms. Three factors that contributed to Pantex's
    inability to locate 442 I-9 forms when requested were: the possible premature
    destruction of files, a misunderstanding of record retention requirements, and the
    possible failure of the management and operating contractor to verify employment
    eligibility for employees who transferred to Pantex from other sites.

Government Accountability Office Reports

    Information Security: Federal Agency Efforts to Encrypt Sensitive Information Are
    Under Way, but Work Remains (GAO-08-525, June 2008). The Government
    Accountability Office (GAO) reported that 24 major Federal agencies had implemented
    encryption and developed plans to implement encryption of sensitive information to
    varied extents. From July through September 2007, the major agencies collectively
    reported that they had not yet installed encryption technology to protect sensitive
    information on about 70 percent of their laptop computers and handheld devices. While
    all agencies had initiated efforts to deploy encryption technologies, none had
    documented comprehensive plans to guide encryption implementation activities such as

___________________________________________________________________
Page 16                                                  Prior Reports
Appendix 3 (continued)

   installing and configuring appropriate technologies in accordance with Federal
   guidelines, developing and documenting policies and procedures for managing
   encryption technologies, and training users.




___________________________________________________________________
Page 17                                                  Prior Reports
Appendix 4



                                         Department of Energy
                                 National Nuclear Security Administration
                                          Washington, DC 20585

                                              June 25, 2009


         MEMORANDUM TO: Ricky R, Hass
                        Deputy Inspcctor Gcneral
                         for Audit Services

         FROM:                  n~hael c. Kane ~~1\t jrt'~
                                ~,.,,;~ociate Administrator                   J
                                     for Management and Administration

         SUBJECT:                  Comments to the IG Dfilf! Report on Sensitive Electronic
                                   Infomlation, A08TG063flDRJ\1S No, 2008-02007

         Thc National Nuclear Security Administration (NNSA) appreciatcs the opportunity to
         provide comments to the IG's report. "Proreclion ofrhe Depal'lme/1/ 's Sensitive
         ElectrOllie III/ormation ", I understand that this audit was initiated to determine whether
         the Department and its contractors adequately safeguarded sensitive electronic
         infornlation.

         NNSA has a number of concerns with the current structure of this report. The tenn
         "sensitive electronic information" has no formal definition and three types of sensitive
         infomlation are discussed in the report (Official Use Only (DUO), Personally Identifiable
         Information (PIJ) and Unclassified Controlled Nuclear Information (UeNI)], The
         protcction requiremellts for each type of information arise from different legal authorities
         and require protections that differ significantly, By combining these types of information
         together. the 10 report does not appear to completely address or identify whether DOE
         and its contractors are adequately protecting "sensitive electronic infonnation,"

         Further complieating,maltcrs, the audit seems to have been perfonned against regulatory
         requirements requiring protection of Pilon mobile devices, but recommendations
         coneem protection of data on servers and workstations. It would be easier to resolve the
         10 eoneems, if the recommendations arc rcvised to address the protection requirements
         of each category of information separately.

         Specific Comments on Topical Areas in Report

         Encryption of Sensitive Data

         The 10 report states that the Department and NIST identifies full-disk encryption as a
         best practice and goes on to further state '., "we found that full-disk encryption had only
         been deployed on approximately 6,000 laptops believed to contain PH at SNL even
         though site officials assumed that each of the approximately 12,000 laptops maintained




                                         *__         001'","00 _ _




___________________________________________________________________
Page 18                                         Management Comments
Appendix 4 (continued)


                                                                                                    2


         by the site contained sensitive infonnation." As written, Ihis statement appears to lake
         issue against Sandia National Laboratories (SNL) for 001 implementing what is
         considered a best practice and not a requirement. Additionally. the report does not
         identify the number of laptops Qui of the 12,000 cited were actually identified as
         mobile/portable (usedltransported beyond the perimclCTofthc facility).

         The third paragraph under Ihis section goes on to identify thai encryption was not always
         used in Ihe transmission ofsc:nsitivc infonnution within the internal network via cmail or
         when sent ofTsite on backup lapes and it goes on 10 quote SNL officials on the
         compensating controls in place and the DAA ~tating that he believed that Ihe
         compensating controls did not adequately mitigate Ihe risk. The report docs nol clearly
         specify whether the SNL official was addressing the issue in whole or purely from an
         intemal network perspective, Also, DOE Manual 471.3-1 allows the transmission of
         Offiei..l Usc Only infonnation by unencrypted email using a word processing file that is
         protected by a password.

         The fourth paragraph talks about the DOE Manual 205.1-7 requiring encryption on all
         portableJmobile devices storing SUVPII ... and OMS Memorandum ()6.16 directing that.
         "In those instances where personally identifiable infonnalion is transported to a remote
         sile. implement NIST 800-53 security controls ensuring that infonnation is transported
         only in encrypted fonn_" However. the IG report did not confinn ifPII was contained on
         the LLNl backup tapes that were turned over to their archiveJstorage subcontractors.

         NIST 800-53 docs not specifically require the usc of encryption for sensitive infonnation
         when transported to and stored at remote sites. It allows approving authorities to utilize
         an organizational assessment of risk to guide the use of encryption andlor physical
         security controls in this instance. DOE Manual 205.1-7 restate these controls verbatim.

         Laptops on Foreign Travel

         The [G rcport states that laptop computers taken on foreign travel by users at LLNL wcre
         not adequately protected against cyber threats. However, the report does not
         acknowledge that cnc,ryption is controlled or restricted in many countries. Some
         countries ban. or severely regulate, the import, export. or use of this technology. Taking
         laptops with encryption software 10 these countries could risk imprisonment or laptop
         confiscation. The IG report does not identify if the countries visited exercised such
         restrictions. The 10 report should identify if the countries visited exercised such laws.

         Privacy Impact Assessments

         The IG report cites DOE procedures on page 3 that PIAs were to be conducted on all
         systems thm cont..in or administer infonnation in identifiable ronn about its employees,
         contractors, or members of the public. However.       lSA has no legal authority to conduct
         PIAs on contractor systems storing infonnation about contractors. The 10 report does not
         identify if the systems cited were contractor systems collecting contractor inronnation.




___________________________________________________________________
Page 19                                         Management Comments
Appendix 4 (continued)

                                                                                               3


       The IG audit began July 2008, prior to the issuance of the DOE Order, and was finished
       during April 2009. The IG TcpOrt fails 10 identify if the 14 systems cited were due for a
       PIA as the policies require PIAs 10 be completed during development or Certification and
       Accreditation.

       Although one section of the policy states, " ... it will be the policy orDQE to conduct
       PlAs on all systems that contain or administer infomlation in identifiable form about it
       employees ..." the section above states the requirements differently. The manual
       collection of PJI does not require PIAs. The E-Gov Act only requires P1As for electronic
       systems. According to the Privacy Act, its requirements apply specifically to records
       under the control of all agency that holds Pll about US citizens and lawful pcmulOent
       residence and DOE does not extend Privacy Act requirements to cover Foreign Nationals.
       Additionally, the Contractor Requirements Document (CRD) in the Order was issued in
       January 2009 and provides specific contractor requirements.

       As the CRD requires contractors at a minimum to comply with the Privacy Act, and take
       appropriate actions to assist DOE in complying with Section 208 of the E-Govemment
       Act of2002, and Office of Management and Budget (OMB) directives, the report did not
       mention if the systems reviewed were Federal systems or contractor systems with
       contractor-owned infornullion or inforntatioll that is collected and maintained for the
       Federal Government. The DOE requirements were specific as it applies to Federal
       systems but unless those requirements arc included in the eRD they are not imposed on
       the contractor.

       cc: Karen Boardman, Director, Service Center
           David Boyd, Senior Procurerncm Executive
           Linda Wilbanks. Chief lnfonnation Officer




___________________________________________________________________
Page 20                                         Management Comments
Appendix 4 (continued)




                                                  Department of Energy
                                                       WashinglOn, DC 20585

                                                            June 30, 2009


       MEMORANDUM FOR RICKEY R. HASS
                      DEPUTY INSPECTOI{ GENERAL
                      OFFICE or AUDIT SERVICES
                      OffiCE Of THE INSPECTOR GENERAL

       FRO;"'I:                       '1'110;"'1:\5 N. PYKE. JR.       .-...Q~
                                      CI liEF   INFOR..\4ATlO;~~
       SUBJECT:                       Dmfl Insp..:ctor Gencml Report on ··Protection of the Dcpartment's
                                      Sensith..: Electronic Inform:ltion." IG-34 (A08TG063)


       The Office of lhe Chief Infonmltion Officcr (OCIO) appreciates the opportunity to provide
       comments on behalf of the Department on the Office oflns~tor General's May 19. 2009. drnft
       report on proteclion of the Department's sensitive electronic information. The Department
       recogni7.es the importance of providing adequate proh:ction of sensitiyc electronic information,
       and we appreciate' the Inspector Genera!"s attention to lhis important concern.

       The DC'panmcnt's Chief financial Offieer has requested that the OCIO respond to the
       rccommcndmions of this drafl I\:pon. consolidating the Department's comments from the various
       Departmental Program offices. including comments from the Officc of Science, the Office of
       Civilian R:ldioactive Waste Manag..:ment. Environmental Management. and Nuelear Energy.

       Commcnts that nddress the specilic recomll1endiltions of the dmfl report are included below,
       while technical comments on the dmfl report arc included in the allachment to this
       memornndum.

        RCCOIIIllll'!HJalion 1

       Emill!"C Ihlll .wlI.~ilil'c ill!Ofll/(l(i/l1l olllJlobilc dl:\·iet:.I'. Ir(llfJ/llilled /Ising declronic IIWit. "r SC/1/ 10
       offiite backup .1·11J!"(Igl: is ad('If/wld)' profeclecf IhrollK" I:I/(·fyplioll

       We partially concur with this recommend:nion. If adequme steps arc taken to ensu!\.' thm there
       is no sensitive information on lliaptop or on alt the Itlptops or other mobile devices at a site, this
       determination should suffice without requiring encryption of all dat:! on such devices. 111is
       should help to balance risk agilinstlhc cost and productivil)' loss associated wilh unnecessury
       use of encrypIion where it:; lise is nol indicated, illduding Ihe usc Of:lhcrnalive, mitigating
       controls as appropriate. We will ensure thllllhis lOpic is addressed ad..:qualCI)' in future
       Departmcnt-Icvel cyber security direClion, t:lkin!; into account 0]\,113 and other esternal
       gownlmcll1-widc direction that is in place i.I1 lhal limo:.




___________________________________________________________________
Page 21                                         Management Comments
Appendix 4 (continued)




       Recommendation 2

       Ensure that sensilive information maintained on mobile compliling devices laken onforeign
       traw:l is adeqllQlely protected and Ihat Sitch devices are physically alld logically examined prior
       to re-connection 10 goverllmenl networks.

       We believe that the type of protection provided for mobile computing devices taken on foreign
       travel should be detcnnined by local risk analysis. Ifno sensitive information is on the device,
       protection such as encryption is probably nol nttessary. When such a device is returned to a
       govenunent site, we agree that it is a good idea to logically scan the device, either before it is
       connected to a government network or when it is connected, before it is given full access to the
       network, but the decision as to whether to do so should be determined by local risk analysis.
       We will ensure thatlhis topic is addressed adequately in future Departmental-level cyber
       security direction, tnking into account OMS and other external government-wide direction that
       is in place at that lime.

       Recommendation 3

      Verify Ihal J'ensilil'f! dolo Oil compliling devices is identified alld adequalefy protected by
      performing random checks.

       While this might be helpful, providing "extra" protection, consideration of the need to perform
       random checks should be based on local risk analysis that takes into account the cost and
       possible lost productivity that may result. The Department appreciates that the Inspector
       General, in its audits and evaluations, employs randomized selection techniques to select sites
       and systems to review, helping to ensure that adequate protection is in place, consistent with
       applicable policy.

       Recommendation 4

       Complele required PIAs on J'Y.ftems /hal cOn/ain privacy informalion.

       We concur with this recommendation.

       Attachment




___________________________________________________________________
Page 22                                         Management Comments
Appendix 4 (continued)



        Attachment to memorandum from Thomas N. Pykc, Jr. 10 Rickey R. Hass concerning draft
        Inspector General Report on "Protection of the Depllrlment's Sensitive Electronic
        Information," IG-34 (A08TG063)

        Please consider these teo:.:hnical comments on this draft report.

        In the Performance Monitoring section, the first paragraph states "none of the sites reviewed
        had instituted such a process." At least one Envirorunental Management site indicated that
        they pcrform full disk encryption of all laptops, and they do not fcel il is also necessary to
        check these laptops for sensitivc information. It is not clear whcthcr the report is suggesting
        that laptops be periodically cheeked to ensufC thatlhey are aClually encrypted, to ensure that
        the encryption software/hardware is working as intended, or to determine that file/folder
        encryption, if used, is being used correclly. Wc arc concerned that adequate protection be in
        place, based on risk as determined locally, and minimizing adverse impacts relative to cost and
        productivity.

        In the Information Security and Assurance .s«:tion, incident statistics are cited as evidence of a
        growing problem relative to data loss through equipment theft or loss, email transmission, or
        unauthorized use. Citing incident reporting data trends in this way can he misleading, since
        increased user awareness, changing reporting requircmcnts, and dcployment of improved
        monitoring and detection systems Clln contribute to increasing numbers of reports. As a result
        of these factors, this may not actually be a growing problem, as is stated in the report. Also,
        multiple program offices have noted that in the second paragraph of this section there is an
        inference that Idaho National Laboratory (INL) lostlhe Personally Identifiable Information
        (PIl) of 59,000 employees. This paragraph should be corrected to clarify that another DOE
        organization was responsible for or involved in Ihis exposure of PII, not INL.

        We are also concerned about Appendix 2 of the draft report, Other Mailers for Consideration.
        The draft report points out that none of the sites evaluated had implemented full disk
        encryption for data at rest, except for mobile devices, nor had the sites provided documentation
        supporting the accepted risk for potentially sensitive data not being cncr}'pted at rest.

        It appears that the Federal Government has marlc a top-level. risk-based decision that
        encryption is important for laptops and removable media that contain sensitive information.
        This is clear in OMB direction and NIST SP 800-111 's reference to that direction. But there
        does not appear to be such a Federal Government-wide "decision" or recommendation that
        sensitive data on desktops or servers should be encrypled. There is possibly very serious
        performance, productivity and cost issues associated with consideration of this type of
        encryption, and the risk would have to be very high to overcome these concerns. Within our
        current DOE cyber security management structure, neither DOE nor any of the pesp owners
        have chosen to recommend or require consideration of encryption of sensitive data on desktops
        or servers. Of course, each DAA, in carrying out his or her C&A duties, addresses the risk
        associated with each systcm and Ihe data on that system, and could choose to require this
        unusually aggressive type of control ifhe or she felt il to be necessary to reduce the residual
        risk associated with a system to:m acceptable Icvel, also taking into account performance.
        productivity. and cost.




___________________________________________________________________
Page 23                                         Management Comments
                                                             IG Report No. DOE/IG-0818

                       CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of
its products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the
back of this form, you may suggest improvements to enhance the effectiveness of future
reports. Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding
   this report?

2. What additional information related to findings and recommendations could have
   been included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's
   overall message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the
   issues discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should
   we have any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector
General at (202) 586-0948, or you may mail it to:

                           Office of Inspector General (IG-1)
                                 Department of Energy
                                Washington, DC 20585

                              ATTN: Customer Relations



If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Judy Garland-Smith (202) 586-7828.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                  http://www.ig.energy.gov

  Your comments would be appreciated and can be provided on the Customer Response Form.
